TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Planning and Implementation of Changes
                 to the Recruiting and Hiring Process Could
                                Be Improved



                                         September 2005

                              Reference Number: 2005-10-183




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2005


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Planning and Implementation of Changes to
                             the Recruiting and Hiring Process Could Be Improved
                             (Audit # 200410029)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) ability to
 recruit and hire to meet its workforce needs. This audit was conducted as part of the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2005 Annual Audit Plan.

 Synopsis
 A major responsibility of a Chief Human Capital Officer (CHCO) is to set and oversee the
 workforce strategy of the agency. The CHCO is currently in the process of finalizing the IRS
 Human Capital Strategic Plan to set forth the strategies to ensure the IRS builds and maintains
 the workforce needed to carry out its mission. We asked about the status of the IRS efforts to
 realign its workforce to place more employees in “front-line” service, compliance, and
 enforcement positions. Human Capital Office (HCO) officials advised us that the HCO staff
 does not track this information. Furthermore, the HCO had difficulty in providing information
 on the planning and implementation of its own restructuring. We plan to perform further audit
 work to assess this reorganization and whether it has achieved its intended goal of realigning the
 workforce to place more employees in front-line service, compliance, and enforcement positions.
 The plans and cost-benefit analysis for implementing the new recruiting and hiring system were
 inadequate. The IRS entered into an agreement with QuickHire® for a system known as
 CareerConnector in 2002. The system has an estimated cost of $8.6 million over a 7-year period,
 and to date the IRS has incurred approximately $2.5 million in internal costs to implement and
 operate this system. HCO officials stated they do not know the amount of savings that will result
 from the implementation of CareerConnector. A cost-benefit analysis for the web-based version
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved



of the CareerConnector system was not performed before it was implemented. The limited cost
savings data to date do not appear to indicate the savings will be greater than the costs when the
system is fully implemented. Furthermore, some Federal Government agencies have
experienced significant problems with QuickHire® because of capacity limitations. One Federal
Government agency terminated its contract because of the extent of the problems. The IRS is
working with the contractor to ensure the system has the capacity needed and is properly tested
before full implementation.
Some steps are being taken to improve the recruiting and hiring process. The IRS is using
category ratings to improve its ability to hire the most qualified job candidates. It has also
refined its assessments of applicants for mission critical occupations, such as the revenue agent
and revenue officer occupations. While there are no specific data to show the effect of the new
processes, the business unit staff we interviewed believes these enhancements have led to better
hiring decisions.
Since May 2004, the Office of Personnel Management (OPM) has advocated that all Federal
Government agencies strive to complete their hiring actions within 45 days, measured from the
date a job vacancy announcement closes to the date an offer of employment is made. The IRS
cannot measure the time it takes to complete an external hiring until CareerConnector is fully
implemented. Furthermore, the HCO staff does not believe meeting the OPM 45-Day Hiring
Model is feasible for some positions because of the additional actions necessary for these
positions. The HCO has instead established a goal of providing a certificate to the selecting
official within 21 days of a vacancy announcement closing, which is the portion of the hiring
process for which they are directly responsible. Nonetheless, to help in progressing toward the
OPM’s 45-day goal, we believe the CHCO should work with individual business units to
establish reasonable goals for the external hiring process, including the period from the date a job
vacancy announcement closes to the date an offer of employment is made.

Recommendations
We recommended the CHCO establish policies and procedures to ensure the progress of
workforce realignment is adequately assessed by the HCO. HCO officials should review
performance measurements on a monthly basis as the HCO downsizing continues, to evaluate the
impact of staff reductions and to ensure staffing is adequate to timely process vacancy
announcements. The CHCO, in coordination with the Department of the Treasury, should
perform an analysis to evaluate the impact CareerConnector will have on HCO staff reductions
as well as the IRS’ hiring efforts. This information should be used to complete a cost-benefit
analysis to determine if the system will provide benefits to the IRS which exceed the costs of
completing the implementation and then operating and maintaining the system. Lastly, for job
categories in which the hiring process takes longer than 45 days, the CHCO should work with


                                                                                                    2
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved



the business units to set appropriate goals and periodically evaluate the process to assess where
further improvements could be made.

Response
HCO management stated they have effectively monitored the progress of the HCO portion of the
Resource Optimization workforce realignment. Management will review HCO policies and
procedures to determine whether additional action is necessary to ensure adequate assessment of
their workforce realignment. Management believes they adequately monitor hiring measures and
will continue to review performance measurements to evaluate the timeliness of vacancy
announcement processing. The HCO plans to conduct a workload analysis once
CareerConnector has been fully deployed. As new occupations are added to CareerConnector,
the HCO is collecting return on investment data that document the old and new processes and
project cost and time savings from the new process. The IRS has established service agreements
for external hiring supported by CareerConnector consistent with the Department of the Treasury
policy and has a workgroup developing IRS policy and implementation procedures.
Management supports the OPM 45-Day Hiring Model and its goals but noted that the Model was
developed without consideration of the IRS’ multiphase processes, high-volume hiring, and need
to sequence external hiring with internal placement actions. Management’s complete response to
the draft report is included as Appendix IV.

Office of Audit Comment
Management’s response does not adequately address our recommendation to establish policies
and procedures to ensure the progress of workforce realignment is adequately assessed by the
HCO. Management’s response appears to be limited to assessing the HCO’s realignment. We
believe the HCO should ensure it has the information needed to assess the progress of the overall
IRS workforce realignment. The IRS response also does not adequately address our
recommendation to establish baselines for positions that require extensive assessments and to
measure and evaluate the process for further improvement. From the IRS’ response, it is unclear
whether the workgroup developing IRS policy and implementation procedures will work toward
establishing baselines with which to evaluate the hiring processes for these positions. We have
also included Office of Audit comments to specific issues in management’s general discussion of
the report as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.



                                                                                                    3
                      The Planning and Implementation of Changes to the Recruiting
                                 and Hiring Process Could Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Resource Optimization Planning Information Was Incomplete ...................Page 3
                    Recommendations 1 and 2: ..............................................Page 4

          The Plans and Cost-Benefit Analysis for Implementing
          the New Recruiting and Hiring System Were Inadequate ............................Page 4
                    Recommendation 3:........................................................Page 8

          Some Steps Are Being Taken to Improve the Recruiting
          and Hiring Process ........................................................................................Page 8
          The Timeliness of the External Hiring Process Should Be
          Measured and Appropriate Goals Set ...........................................................Page 11
                    Recommendation 4:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
          Appendix V – Office of Audit Comments on Management’s Response......Page 22
                   The Planning and Implementation of Changes to the Recruiting
                              and Hiring Process Could Be Improved




                                           Background

The Internal Revenue Service’s (IRS) Strategic Plan states the IRS will realign its workforce to
place more employees in “front-line” service, compliance, and enforcement positions. One
strategy the IRS indicates it will use to achieve the resources needed for this increase is to reduce
staffing and implement process improvements in areas such as its internal support functions.
The IRS has a number of efforts underway to achieve these reductions and process
improvements. In Fiscal Year (FY) 2002, the IRS Commissioner directed IRS executives to
reduce the number of personnel offices and to consolidate employment operations. As a result,
the IRS performed a Resource Optimization Study of its human resource support functions. This
study concluded that these functions could be streamlined to reduce duplications. The Resource
Optimization Study recommendations were adopted by the Commissioner in October 2003.
Until the end of October 2003, the responsibility for human resource issues was included in what
was known as the IRS Strategic Human Resources Division. While this office was responsible
for policy matters and provided some human resources support, each of the IRS’ operating
divisions and functional units also had a human resources staff. In November 2003, the Human
Capital Office (HCO) was established, which replaced the IRS Strategic Human Resources
Division and took over some of the personnel functions performed by the IRS Agency-Wide
Shared Services Division.
Based on the Resource Optimization Study,                 Table 1: Planned FTE Reductions for
the IRS plans to eliminate a total of                          Human Resources Support
741 Full-Time Equivalents (FTE)1 from                                                                 Staff
human resources support in its                        Business or Functional Unit
                                                                                                    Reduction
Headquarters and field offices. Most of
this reduction comes from the HCO and                 Human Capital Office                               330
Agency-Wide Shared Services Division.                 Agency-Wide Shared Services                        313
Table 1 shows the planned reductions of               Small Business/Self-Employed Division                55
human resources staff. According to the
                                                      All Other Divisions and Functions                    43
HCO, as of April 29, 2005, it had achieved
a reduction of 172 (52 percent) of the                Total                                              741
planned 330 FTEs. The Chief Human                     Source: IRS HCO Staff.
Capital Officer (CHCO) expects to
complete the restructuring by October 2005.



1
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2005, 1 FTE is equal to 2,088 hours.
                                                                                                         Page 1
                    The Planning and Implementation of Changes to the Recruiting
                               and Hiring Process Could Be Improved



Most of the reductions in the HCO come from its Talent, Hiring, and Recruitment Division,
which has the primary responsibility for meeting the IRS’ hiring needs. This Division is
reducing its staff from 925 FTEs down to 634 FTEs, a reduction of 291 FTEs. Despite this
31 percent reduction in staff, the Talent, Hiring, and Recruitment Division must maintain its
ability to process all of the IRS’ hiring actions. Over the last 3 fiscal years, the IRS processed
an average of 310,000 job applications annually and hired or promoted an average of
33,000 employees IRS-wide. Most of these are temporary or seasonal employees who are hired
to meet the IRS’ peak workload during the filing season for individual tax returns from January
through April. The number of seasonal employees hired is decreasing each year as more
taxpayers file electronic returns. Nonetheless, as the nature of the work in the IRS changes, the
IRS is hiring more workers with professional or paraprofessional skills. Furthermore, the IRS
must replace its retiring workforce. About 25 percent of all IRS employees are either currently
eligible for retirement or will be eligible by 2006.2
The IRS planned to achieve the significant reductions in personnel devoted to hiring and
recruiting by standardizing and automating its hiring and recruiting processes. In 2002, the IRS
selected QuickHire®, a commercial, web-based system tailored to fit the Federal Government
recruitment process, as the system it would use to standardize and automate its hiring and
recruiting processes. This system is now being implemented throughout the Department of the
Treasury, in addition to the IRS, and is referred to as CareerConnector.
We performed this audit to evaluate the implementation of the IRS’ hiring and recruiting system
and its processes to meet its hiring and recruiting needs with reduced support staff. This review
was performed at the IRS National Headquarters in the office of the CHCO during the period
October 2004 through May 2005. Site visits were made to IRS offices in Holtsville, New York;
Philadelphia, Pennsylvania; and Atlanta, Georgia. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
    IRS Oversight Board Annual Report 2004.
                                                                                            Page 2
                 The Planning and Implementation of Changes to the Recruiting
                            and Hiring Process Could Be Improved




                                 Results of Review

Resource Optimization Planning Information Was Incomplete

A major responsibility of a CHCO is to set and oversee the workforce strategy of the agency.
The CHCO is currently in the process of finalizing the IRS Human Capital Strategic Plan to set
forth the strategies to ensure the IRS builds and maintains the workforce needed to carry out its
mission. We asked about the status of the IRS efforts to realign its workforce to place more
employees in front-line service, compliance, and enforcement positions. HCO officials advised
us that the HCO staff does not track this information. That responsibility is left to the individual
business units and the IRS Chief Financial Officer because the HCO is not involved in deciding
which positions are needed and how the positions will be funded. They explained there is no
practical way to determine which positions are filled as the result of initiatives, realignment, or
hiring replacements to fill regular attrition as it occurs. The HCO could not report on the overall
staffing reductions recommended in the Resource Optimization Study; it could only report on
those 330 positions within its own offices.
Furthermore, there was a lack of data needed to identify how the HCO expects to accomplish
recruiting and hiring for the IRS with the significant reduction in its own staff. After the
reorganization, the staff will be reduced by 31 percent to about 634 FTEs and will be expected to
handle an increased volume of hiring actions. The 330-position reduction in the HCO included
about 291 in the Talent, Hiring, and Recruitment Division. As of March 2005, 153 employees
had gone, with the balance to be off the rolls by October 1, 2005. During the audit, we requested
documents to show how the proposed overall reduction of 330 positions and the 291 in the
Talent, Hiring, and Recruitment Division was determined. We were advised that the goal was
established at the request of the prior IRS Commissioner to be more in line with the human
resource support ratios of other organizations. While the HCO staff was able to provide briefing
documents and a study performed by a contractor which indicated that some type of staff
reductions could be achieved, none of the documents contained any numerical data involving
workload inventories, production rates, or other data normally developed and documented to
support such a significant reorganization.
Because the HCO was unable to provide information needed to evaluate the new organization,
processes, and workload capacity, we are unable to determine whether the IRS will be able to
meet all of its hiring needs with the reduced staff it expects to have as of October 2005.
Although we did not find any conclusive indications that the HCO has not been able to meet its
hiring and recruiting workload with the reductions that have taken place to date, the HCO’s
FY 2005 third quarter business results report indicates that, compared with the third quarter of
FY 2004, it is taking about 2 more days to process internal job applications to the point of getting

                                                                                             Page 3
                       The Planning and Implementation of Changes to the Recruiting
                                  and Hiring Process Could Be Improved



them ready for ranking (a 12 percent increase).3 There are a number of factors which may have
caused this increase; however, these measurements should be monitored closely to ensure
adequate service levels can be maintained despite the reduction in staff.
Due to the lack of data available to evaluate the basis for the IRS reorganization resulting from
its Resource Optimization Study, we plan to perform further audit work to assess this
reorganization and whether it has achieved its intended goal of realigning the workforce to place
more employees in front-line service, compliance, and enforcement positions.


Recommendations
Recommendation 1: The CHCO should establish policies and procedures to ensure the
progress of workforce realignment is adequately assessed by the HCO.
           Management’s Response: HCO management stated they have effectively monitored
           the progress of the Resource Optimization workforce realignment. However, they will
           review their policies and procedures to determine whether additional action is necessary
           to ensure adequate assessment of their workforce realignment.
           Office of Audit Comment: Management’s response does not adequately address our
           recommendation. Our recommendation is not limited to the HCO’s realignment. We
           believe the HCO should ensure it has the information needed to assess the progress of the
           overall IRS workforce realignment.
Recommendation 2: HCO officials should review performance measurements on a monthly
basis as the HCO downsizing continues to evaluate the impact of staff reductions and to ensure
staffing is adequate to timely process vacancy announcements.
           Management’s Response: HCO officials stated that, in FY 2005, the IRS met or
           exceeded initial goals for all major compliance and campus hiring initiatives and made
           21,489 selections through June 30. The IRS monitors its hiring measures on a weekly
           basis and will continue to review its performance measurements to evaluate the
           timeliness of vacancy announcement processing.


The Plans and Cost-Benefit Analysis for Implementing the New
Recruiting and Hiring System Were Inadequate

In selecting an automated hiring and recruiting system, the IRS sought a system in which all
functions associated with the hiring and recruiting process could be performed online, including


3
    See page 8 of this report for a description of the hiring process.
                                                                                             Page 4
                    The Planning and Implementation of Changes to the Recruiting
                               and Hiring Process Could Be Improved



job vacancy announcements, job applications, rating and ranking, and referral to the selecting
official. The system also had to allow for knowledge and ability-based assessments and interface
with the Office of Personnel Management’s (OPM) automated system – USAJobs. Based on
these requirements, IRS officials selected QuickHire® as the software for the IRS’ new
CareerConnector system, which is also being implemented throughout the Department of the
Treasury. This system is not yet fully implemented at the IRS, and the total cost savings the
system is expected to deliver have not been determined.
From the time CareerConnector was first used in November 2003 and through March 31, 2005,
only 32 of the approximately 18,000 announcements posted by the IRS were processed using
CareerConnector. Notwithstanding its limited use to date, Talent, Hiring, and Recruitment
Division officials advised us that CareerConnector implementation is on schedule. Before the
system is fully implemented, they want to ensure the following:
    •   HCO staff is adequately trained.
    •   Content has been developed for the appropriate job series.
    •   All IRS employees have access to a computer.
    •   Agreement with the National Treasury Employees Union on how the system will be used.
As of May 2005, CareerConnector can be used to process eight of the IRS’ job series; over
one-half of all IRS employees are in one of these eight occupations. The HCO is working to
develop the content such as the critical skills and rating factors for the remaining IRS job series
and intends to have all series ready by the end of Calendar Year 2005.
According to IRS officials, CareerConnector has met most of its expectations in the limited use
that it has had so far. Applicants searching the OPM web site for IRS jobs can be automatically
redirected to the CareerConnector system. CareerConnector accepts applicant resumes online
and allows applicants to update their information when necessary. Once applicants complete the
online application, the system ranks the applicants and identifies which applicants qualify for the
position. It allows the HCO to send system-generated email to request additional information
from applicants or inform them if they qualify for the position, to schedule interviews, and to
communicate on such matters as job offers and preemployment activities.
The system does not yet provide certain functions such as fax imaging, a standing register,4 or
ad hoc reports and queries. These features are currently being tested by the HCO. Release of the
final phase of CareerConnector is on hold until they can be sure the system will integrate with
the OPM’s new e-government system known as Recruitment One Stop. Recruitment One Stop
provides a search engine for searching on more than 100 Federal Government agency sites and a
resume builder to create a basic resume that can be used to apply for positions across the Federal

4
 A standing register provides a list of interested and qualified candidates ready to be certified for current and future
vacancies. It provides flexibility to meet large-volume recruitment needs such as campus hiring for the IRS.
                                                                                                                Page 5
                     The Planning and Implementation of Changes to the Recruiting
                                and Hiring Process Could Be Improved



Government. The HCO is not certain when the final phase of CareerConnector will be
implemented.

A cost-benefit analysis was not performed before the CareerConnector system
was implemented

The IRS entered into the agreement with QuickHire® for CareerConnector in 2002. The system
has an estimated cost of $8.6 million over a 7-year period, which includes the cost of operations,
maintenance, training, hosting facility costs, equipment costs, costs for developing special
reports, and fees for special modules. QuickHire® provides the application server for this
system. In addition to the $8.6 million expected to be paid to QuickHire®, there have also been
approximately $2.5 million in internal IRS costs such as staff hours and travel in support of the
project.
IRS guidance states that a business case analysis should be performed to provide comprehensive
justification for investment in a capital asset.5 The analysis should provide a model of what the
IRS expects to be able to achieve by pursuing a specific course of action. It should contain a
spending summary, project justification (including benefits and return on investment) and cost,
schedule, and performance goals. However, HCO officials stated that they do not know the
amount of savings that will result from the implementation of CareerConnector. A cost-benefit
analysis for the web-based version of the CareerConnector system was not performed before it
was implemented. The HCO staff has only been able to estimate the cost savings for two IRS
campus positions, data transcribers and clerks. They used the savings associated with those
2 announcements at 1 IRS campus to project the potential savings for all 10 campuses.
During FY 2004, the IRS hired over                      Table 2: Savings Associated With
7,000 employees for those 2 positions and estimated          the Use of CareerConnector
an overall cost savings of over $111,000 could have     Expense Type                 Dollars Saved
been achieved had CareerConnector been used when
hiring all 7,000 employees. See Table 2 for the         Testing Sessions                   $37,440
savings projected. The $111,000 divided by the          Printing Costs                      17,306
7,000 employees indicates a savings of $15.86 per
                                                        Fingerprinting                      50,232
employee hired. The IRS also expects to be able to
reduce its support costs to the OPM of about            Postage                              6,317
$800,000 annually by approximately $386,000 a           Total Savings                    $111,295
year once CareerConnector is fully implemented.
                                                        Source: IRS HCO Staff.
These savings include the elimination of costs for
certain notices, booklets, and inventory maintenance fees for the revenue officer occupation.


5
    Business Cases, An Executive Briefing, IRS (June 30, 2000).
                                                                                            Page 6
                   The Planning and Implementation of Changes to the Recruiting
                              and Hiring Process Could Be Improved



These projections do not appear to indicate that the savings from CareerConnector once it is fully
implemented will justify the cost. We asked HCO officials to provide information on whether
any of the staff reductions can be attributable to the implementation of the CareerConnector
system. HCO officials advised us the staff reductions were planned independently of the
implementation of the CareerConnector system. While they believe the CareerConnector system
will be an integral component of the overall efficiencies gained, they do not attribute any of the
staff reductions directly to the implementation of the system.

Some Federal agencies have experienced problems using QuickHire®

There are indications that problems could occur as the IRS increases its use of the
CareerConnector system. The IRS requires the CareerConnector system to allow a large number
of screening questions and not limit the number of vacancy announcements on the system.
However, at least two Federal Government agencies have had significant problems with
QuickHire’s® ability to handle a large number of announcements and applicants’ information.
Both agencies had to discontinue using the software system.
The Department of Homeland Security and the Department of Health and Human Services were
told by QuickHire’s® parent company, Monster Government Solutions, that the problems were
caused by the large number of announcements the agencies had on the system, the large number
of questions on the applications (or where the applicants had to respond to questions with large
amounts of data), and the high volume of applicants. A representative from the Department of
Homeland Security stated that, when the problems with QuickHire® started occurring in
January 2005, there were 300 job vacancy announcements open. Because of the problems, about
232,000 applications were lost. The Department of Health and Human Services also posts a
large number of announcements; over 700 were open on 1 day in April 2005. That is
approximately the same number of announcements the IRS had open 1 day in April 2005;
however, very few were on CareerConnector.
Both the Department of Homeland Security and the Department of Health and Human Services
took their job sites down in early March 2005. The Department of Homeland Security has since
had to hire staff to process new applications by hand. The Department of Health and Human
Services6 is still working with Monster Government Solutions to resolve the problem affecting
QuickHire®. However, in June 2005, the Department of Homeland Security terminated its
contract with Monster Government Solutions. The “termination for cause” notification stated,
“The system failed repeatedly. Specifically, employees accessing the system were involuntarily
exited from the system or were unable to access the system at all. During the failures, the system


6
  The Department of Health and Human Services uses a different version of QuickHire® from the one that is used by
the IRS and the Department of Homeland Security.
                                                                                                         Page 7
                   The Planning and Implementation of Changes to the Recruiting
                              and Hiring Process Could Be Improved



‘froze’ and then displayed an error message.” The system the Department of Homeland Security
was using was the web-based QuickHire Xi®, the same system that is being used by the IRS.
Officials from the Department of the Treasury7 and the IRS met with Monster Government
Solutions to discuss their concerns over the system’s ability to handle increasing volumes of
applicants. Monster Government Solutions has been making upgrades and adding enhancements
to the system and plans to perform tests to evaluate the system’s ability to handle increased
volume. Representatives from Monster Government Solutions have stated that they will make
adjustments to server capacity, hardware, and software performance based on the results of the
tests.
By bringing the software system up slowly and limiting the number of announcements as
CareerConnector is being tested and certified, the IRS hopes to avoid some of the problems
experienced by other agencies. The IRS will need to monitor this closely. The staff reductions
that are taking place in the HCO would limit the IRS’ ability to manually process applications.


Recommendation
Recommendation 3: The CHCO, in coordination with the Department of the Treasury,
should perform an analysis to evaluate the impact CareerConnector will have on HCO staff
reductions as well as the IRS’ hiring efforts. This information should be used to complete a
cost-benefit analysis to determine if the system will provide benefits to the IRS and the
Department of the Treasury which exceed the costs of completing the implementation and then
operating and maintaining the system.
        Management’s Response: The HCO plans to conduct a workload analysis once
        CareerConnector has been fully deployed. As new occupations are added to
        CareerConnector, the HCO is collecting return on investment data that document the old
        and new processes and project cost and time savings from the new process.


Some Steps Are Being Taken to Improve the Recruiting and Hiring
Process

The IRS has taken a number of actions to improve the recruiting and hiring process. The IRS is
using category ratings and has improved its screening process of the number of highly qualified


7
 The Department of the Treasury and the IRS agreed to integrate CareerConnector into the Department of the
Treasury’s HR Connect suite of services effective for FY 2003. CareerConnector was not operational for use by any
Department of the Treasury bureau until November 2003 when it was first used by the IRS.
                                                                                                         Page 8
                   The Planning and Implementation of Changes to the Recruiting
                              and Hiring Process Could Be Improved



candidates hired. The hiring process used by the IRS and most Federal Government agencies
involves five basic steps:
•   Vacancy Posting – employees and the general public are made aware of job vacancies.
•   Qualification Validation – applicants’ packages are reviewed for completeness and some
    information, like college transcripts or Certified Public Accountant qualifications, are
    verified.
•   Rating and Ranking – individual applications are rated and applicants are scored or grouped
    into categories. This will occur after any job assessments have been completed.
•   Certification – a list of the best-qualified applicants is provided to the individual responsible
    for selecting which applicants will be hired.
•   Applicant Notification – the process of actually notifying the job applicant.
To improve the IRS’ ability to hire the most-qualified job candidates, the IRS Restructuring and
Reform Act of 19988 allowed the IRS to use category ratings for job applicants.9 The new
authority does away with the restriction to hire from only the candidates whose job application
packages were rated as the top three based on a system to score factors such as education and
experience.10 With category rating, job candidates can be separated into two or more categories,
with anyone in the top category eligible for selection.11
The IRS classifies job candidates into three categories. Candidates respond to questions about
their education, skills, prior work experience, and professional certifications. Based on their
answers, eligible applicants are rated as potential A (Superior), B (Highly Qualified), or C
(Qualified) candidates. The process of separating ineligible candidates from eligible candidates,
and then rating the eligible candidates, can be completed in a shorter period of time using the
IRS recruiting and hiring software, CareerConnector, than the established manual process.
Applications in the top category (A) are then adjudicated, which involves verifying the
applicants’ transcripts, substantiating courses and semester hours, and prior work experience.
Because applications rated as B and C are not adjudicated, there is some savings due to the
reduction in time that would have been spent on these applications. The IRS plans to continue to
adjudicate category A applications because, in two recent job announcements, less than one-half
of the candidates who were initially rated in the top category remained in this category after the
information they provided was adjudicated. The Talent, Hiring, and Recruitment Division staff


8
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
9
  Category rating was first employed by the IRS to facilitate the hiring of over 350 revenue agents in FY 2001.
10
   The Rule of Three is a requirement that selection must be made from the three highest-rated eligible candidates
who are available for the job for which they applied.
11
   Subject to veterans’ preference requirements.
                                                                                                             Page 9
                 The Planning and Implementation of Changes to the Recruiting
                            and Hiring Process Could Be Improved



believes the high fallout rate is attributed to the advanced and specific educational requirements
associated with the revenue agent job series. The revenue officer job series does not have such a
high fallout rate.
The category rating process is approved for revenue agent and revenue officer positions, which
account for approximately 17 percent of the IRS’ total staffing. The IRS has identified two other
positions, customer service representative and tax examiner, for which it is considering the use of
category ratings. These 2 additional job series account for about 29 percent of the IRS’ total
staffing. Category rating is best suited to professional and technical occupations with clearly
defined qualifications that allow for classification into category groups and where the employer
wants the flexibility to select from a wide pool of candidates. The IRS intends to use category
rating to the greatest extent possible.
A study of the IRS use of the category rating process performed by an independent organization
in 2003 concluded the category rating process had “increased the applicant pool, reduced the
length of the hiring cycle, and facilitated the hiring of high-quality applicants for key positions,
thereby contributing to the success of the recruitment initiative.”12

Assessment screening

The IRS has refined its assessments of applicants for mission critical occupations, such as the
revenue agent and revenue officer occupations. The process is different for each of the
occupations. For example, revenue agent candidates who are rated in the top category are given
an accounting test to measure the applicant’s understanding of accounting principles. An outside
contractor hired by the IRS then performs an assessment over the telephone to evaluate the
applicant’s general competencies such as problem solving, decision making, and interpersonal
skills. In contrast, revenue officer candidates are given an online assessment to evaluate their
skills in areas such as decision making, financial management analysis, flexibility, and integrity
when they are completing the application process on CareerConnector. Their scores on this
assessment are considered when they are rated into the rating categories. Candidates in the top
category must then undergo a second assessment similar to that of the revenue agent candidates.
Both revenue agent and revenue officer candidates that pass the assessment screening are then
interviewed by managers from the business units to evaluate and decide which applicants should
be hired. While there is no specific data to show the effect of the new processes, the business
unit staff we interviewed believes this enhanced assessment process has led to better hiring
decisions.



12
  Modernizing Human Resource Management in the Federal Government: The IRS Model (IBM Endowment for
the Business of Government, dated April 2003).
                                                                                             Page 10
                 The Planning and Implementation of Changes to the Recruiting
                            and Hiring Process Could Be Improved




The Timeliness of the External Hiring Process Should Be Measured
and Appropriate Goals Set

Since May 2004, the OPM has advocated that all Federal Government agencies strive to
complete their external hiring actions within 45 days, as measured from the date a job vacancy
announcement closes to the date an offer of employment is made. Historically, the IRS has not
been able to measure the time it takes to complete an external hiring action. HCO staff informed
us that only those job vacancies processed on CareerConnector can be measured. Service
support agreements for two business units we reviewed note:
     Right now, the HCO can only measure external hiring cycle time with
     CareerConnector and has no real benchmark for external hiring cycle times.
The HCO staff does not believe meeting the OPM 45-Day Hiring Model is feasible for some
positions because of the additional actions necessary for these positions. For example, some of
the prehiring screening processes (particularly those related to the revenue agent, revenue officer,
and the criminal investigator positions) and the criminal background check common to most
positions can significantly extend the time needed to hire an applicant. Once this process is
completed, some positions also require tax compliance reviews before an offer of employment
can be made.
For these reasons, HCO officials advised us that the HCO has established a goal of providing a
certificate to the selecting official within 21 days of a vacancy announcement closing. They
chose this goal because they believe they should only be held accountable for the portion of the
hiring process for which they are directly responsible. However, not all of the service support
agreements provided to us were consistent with respect to timeliness goals. While 3 clearly
stated the 21-day goal for delivering the certificate, 5 did not include this goal. Those
agreements without the 21-day goal stated that the HCO staff would work with the business unit
to develop an action plan.
HCO officials anticipate that automating the qualification, rating, and ranking process will
significantly reduce the time it takes to deliver the certificate to the selecting official, which in
turn may allow the IRS to meet the 45-day goal as defined by the OPM. To help in progressing
toward this goal, we believe the CHCO should work with individual business units to establish
reasonable goals for the external hiring process. For the majority of its hiring efforts, the IRS
should attempt to achieve the OPM goal of 45-days. For the positions which require extensive
assessments and testing, baselines should be established and appropriate goals set.




                                                                                              Page 11
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved




Recommendation
Recommendation 4: For job categories in which the hiring process takes longer than
45 days, the CHCO should work with the business units to set appropriate goals and periodically
evaluate the process to assess where further improvements could be made.
       Management’s Response: The IRS has established service agreements for external
       hiring supported by CareerConnector consistent with the Department of the Treasury
       policy and has a workgroup developing IRS policy and implementation procedures.
       Management supports the OPM 45-Day Hiring Model and its goals but noted that the
       Model was developed without consideration of the IRS’ multiphase processes, high-
       volume hiring, and need to sequence external hiring with internal placement actions.
       Office of Audit Comment: The IRS response does not adequately address our
       recommendation. We recommended that baselines be established for positions that
       require extensive assessments and tests and that appropriate overall hiring timeline goals
       be established, measured, and evaluated for further improvement. From the IRS’
       response, it is unclear whether the workgroup developing IRS policy and implementation
       procedures will work toward establishing baselines with which to evaluate the hiring
       processes for these positions.




                                                                                         Page 12
                 The Planning and Implementation of Changes to the Recruiting
                            and Hiring Process Could Be Improved



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Internal Revenue Service’s (IRS) ability to
recruit and hire to meet its workforce needs. To accomplish this objective, we:
I.     Interviewed Human Capital Office (HCO) officials to determine their level of interaction
       with other IRS functional units in developing a strategic approach to the IRS’ human
       capital needs.
II.    Determined if the HCO has established an adequate strategy and has developed sufficient
       processes to enable the IRS to meet its hiring needs.
       A. Reviewed the Human Resource Optimization study on which the realignment of the
          recruiting and hiring functions was based.
       B. Evaluated the progress of the HCO in accomplishing its plans to reorganize and
          whether it is on schedule to meet its goals.
       C. Identified the measures the HCO uses to determine the success of its hiring efforts.
       D. Determined how the HCO plans to meet the IRS’ long-term strategic recruiting and
          hiring needs.
III.   Evaluated whether the implementation of CareerConnector will achieve the efficiencies
       necessary for the HCO to recruit and hire with a smaller staff without a decrease in the
       quality of the work performed.
       A. Requested the business case for the implementation of CareerConnector to determine
          if the assumptions were reasonable.
       B. Determined the current status of CareerConnector and the degree of functionality
          achieved through phase 4 and efficiency gained to date. We determined what
          additional functionality and efficiency is expected from phases 5 and 6 and the cost to
          complete these phases.
       C. Determined the date CareerConnector will be fully implemented and the number of
          job series which will eventually be included in CareerConnector.
       D. Identified problems associated with the use of CareerConnector and the actions taken
          and planned to resolve those problems.




                                                                                           Page 13
               The Planning and Implementation of Changes to the Recruiting
                          and Hiring Process Could Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
Gene A. Luevano, Senior Auditor
Yasmin Ryan, Senior Auditor




                                                                                      Page 14
               The Planning and Implementation of Changes to the Recruiting
                          and Hiring Process Could Be Improved



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Human Capital Officer OS:CFO




                                                                       Page 15
    The Planning and Implementation of Changes to the Recruiting
               and Hiring Process Could Be Improved



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 16
The Planning and Implementation of Changes to the Recruiting
           and Hiring Process Could Be Improved




                                                       Page 17
The Planning and Implementation of Changes to the Recruiting
           and Hiring Process Could Be Improved




                                                       Page 18
The Planning and Implementation of Changes to the Recruiting
           and Hiring Process Could Be Improved




                                                       Page 19
The Planning and Implementation of Changes to the Recruiting
           and Hiring Process Could Be Improved




                                                       Page 20
The Planning and Implementation of Changes to the Recruiting
           and Hiring Process Could Be Improved




                                                       Page 21
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved



                                                                                 Appendix V

        Office of Audit Comments on Management’s
                          Response

In response to our draft report, the Chief Human Capital Officer (CHCO) included some general
comments and assertions we believe warrant additional comment. We have included portions of
management’s response and our related comments below.
Management’s Response: The initial objective of this review was to assess the Internal
Revenue Service’s (IRS) ability to recruit and hire to meet its workforce needs. However, the
scope was expanded to include the planning and implementation of HCO’s Resource
Optimization Study and the cost-benefits of CareerConnector.
       Office of Audit Comment: Both of these issues were part of the original scope of this
       audit. They are both important facets of the IRS’ recruiting and hiring efforts. The
       planning and implementation of the Human Capital Office’s (HCO) Resource
       Optimization Study resulted in significant reductions in the HCO Talent, Hiring, and
       Recruitment Division. Furthermore, one of the objectives of the Resource Optimization
       Study was to reduce support staff so the workforce could be realigned to front-line
       service and enforcement positions. The CareerConnector system was an important
       component of the IRS’ effort to standardize and automate its hiring and recruiting
       processes. We believe the projected costs and benefits of the system should have been
       estimated early on in the process to better understand its impact on the recruiting and
       hiring processes.
Management’s Response: TIGTA’s primary concern appears to be HCO’s inability to point
to Mission Critical Occupation (MCO) hires that have resulted from HCO’s downsizing. HCO’s
optimization savings of 330 FTEs and $8 million were permanently taken from our base funding
beginning in FY 05. This assessment was reallocated corporately for unfunded budget
initiatives, unfunded pay raises, and prior year annualizations, among other uses. With effective
corporate management of all funds, the IRS increased tax law enforcement as a percent of total
FTE by 2.05% since 2003.
       Office of Audit Comment: We are concerned with the HCO’s inability to provide
       information on the number of front-line service and enforcement hires that have resulted
       from the downsizing in human resource support staff. We believe the HCO should be in
       a position to assess the status of the IRS-wide workforce realignment. The CHCO states
       the optimization savings of 330 Full-Time Equivalents (FTE) and $8 million were
       reallocated and used for unfunded budget initiatives, unfunded pay raises, and prior year
       annualizations, among other uses. However, the authorization to make these staffing
       reductions through buyouts and early-outs to employees was based on realigning the
                                                                                         Page 22
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved



       workforce to front-line service and enforcement positions. While HCO management
       states that tax law enforcement has increased as a percentage of total FTEs by
       2.05 percent since 2003, they were unable to provide information needed to evaluate the
       progress of IRS workforce restructuring compared to its goals.
Management’s Response: In FY 2005, IRS met or exceeded initial goals for all major
compliance and campus hiring initiatives and made 21,489 selections for all hiring through
June 30, 2005. Since Modernization, we have met 100% of our hiring goals, even as our staffing
has decreased substantially and our employment branches have been consolidated from 23 to 9.
We monitored capacity to ensure the HCO could continue to meet hiring demands as resources
declined. Two separate workload balancing analyses were conducted to enable us to balance
employment staff resources with workload indicators. The workload balancing was based on
client base, applications processed, and selections made using a weighted formula.
       Office of Audit Comment: While overall staffing has generally declined over the past
       few years, the IRS Commissioner’s goal has been to redistribute at least 10 percent of the
       IRS workforce to front-line service, compliance, and enforcement activities. This would
       involve approximately 10,000 positions, most if not all of which would be realigned
       through the competitive hiring process overseen by the HCO. Although HCO
       management asserts that two workload analyses were conducted, management did not
       provide this information to us during our audit or after we provided them with a
       preliminary copy of our report. Management provided only a single spreadsheet that they
       referred to as a “capacity study.” The study indicated that, if the IRS were placed in a
       position to conduct routine hiring efforts and simultaneously had to handle what it termed
       Transition work (conduct any Reduction in Force associated with other restructuring
       efforts), the IRS would have to temporarily hire a contractor to meet the workload
       evaluated in the study. The study indicated the IRS could face a significant staffing gap
       of as many as 100 HCO employees in the second quarter of Fiscal Year 2005. While that
       did not occur, the IRS’ own calculations indicated staffing shortages might be
       encountered well before the HCO office is fully downsized.
Management’s Response: The IRS has not encountered the severe capacity issues with the
QuickHire Xi (CareerConnector) product recently reported in the press and highlighted by
TIGTA. We have concern with the importance being given to the problems reported by a very
small percentage of the 40 Federal agencies successfully using the system. In fact, the results of
a recent performance test of the system shows[sic] that the latest release of the product should
support 19,000 applicants per 15-hour day with 400 HR users. The IRS has taken a very careful
approach in our transition from CareerConnector pilot to full implementation. We are on track
with our rollout of the software to our employment offices. Since the TIGTA audit was
conducted, the IRS has expanded Campus recruiting using CareerConnector to include
additional occupations and 6 employment offices. We have also implemented a scheduler pilot
in tandem with the increase in Campus recruiting.

                                                                                           Page 23
                The Planning and Implementation of Changes to the Recruiting
                           and Hiring Process Could Be Improved



       Office of Audit Comment: The test described in management’s response was not
       completed at the time we conducted our fieldwork. As such, we did not assess the results
       of the test to evaluate whether it was an adequate indicator of the capacity of the system.
       We reported the issue to ensure HCO officials were aware of the problems encountered
       by other large Federal Government agencies with QuickHire®. If the system fails to
       perform adequately, we believe the risks are heightened at the IRS because of the
       significant reductions in human resource support staff.
Management’s Response: We believe the methodology TIGTA used to determine return on
investment for CareerConnector is flawed and plan to conduct a workload analysis once
CareerConnector is fully deployed. The analysis will consider the impact of CareerConnector,
new hiring strategies, and evolving customer hiring needs such as the impact of electronic filing.
We will not solely measure the value of CareerConnector in terms of costs and impact of staff
resource needs. This is important because the decision to adopt an automated hiring system and
the choice to use CareerConnector were not driven by cost savings. Rather, IRS leadership
directed the Human Resources functions to obtain and use a single automated system for
recruitment and hiring to achieve qualitative improvements.
       Office of Audit Comment: We did not perform a cost-benefit analysis or determine
       the return on investment for CareerConnector. That is the responsibility of the
       Department of the Treasury and IRS management; a cost-benefit analysis should have
       been completed before the decision was made to acquire the system. We did note in our
       report that the limited cost savings projections IRS management was able to provide were
       not sufficient to indicate that the savings from CareerConnector, once it is fully
       implemented, will justify the cost.




                                                                                          Page 24
